<html>
<title> - THE BUREAU OF LAND MANAGMENT'S PLANNING 2.0 INITIATIVE</title>
<body><pre>[Senate Hearing 114-471]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-471
 
         THE BUREAU OF LAND MANAGMENT'S PLANNING 2.0 INITIATIVE

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON PUBLIC LANDS, FOREST, AND MINING

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2016

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
         

           Available via the World Wide Web: http://fdsys.gov
           
           
           
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-992                   WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
           
           
           
           
           
           
           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

           Subcommittee on Public Lands, Forests, and Mining

                        JOHN BARRASSO, Chairman
SHELLEY MOORE CAPITO                 RON WYDEN
JAMES E. RISCH                       DEBBIE STABENOW
MIKE LEE                             AL FRANKEN
STEVE DAINES                         JOE MANCHIN III
BILL CASSIDY                         MARTIN HEINRICH
CORY GARDNER                         MAZIE K. HIRONO
JOHN HOEVEN                          ELIZABETH WARREN
JEFF FLAKE
LAMAR ALEXANDER

                      COLIN HAYES, Staff Director
                PATRICK J. McCORMICK III, Chief Counsel
                MICHELLE LANE, Professional Staff Member
           ANGELA BECKER-DIPPMANN, Democratic Staff Director
                SAM E. FOWLER, Democratic Chief Counsel
           SPENCER GRAY, Democratic Professional Staff Member
           
           
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Barrasso, Hon. John, Subcommittee Chairman, a U.S. Senator from 
  Wyoming........................................................     1
Murkowski, Hon. Lisa, a U.S. Senator from Alaska.................     1

                               WITNESSES

Kornze, Hon. Neil, Director, Bureau of Land Management, U.S. 
  Department of the Interior.....................................     7
Magagna, Jim, Executive Vice President, Wyoming Stock Growers 
  Association....................................................    15
Ogsbury, James, Executive Director, Western Governors' 
  Association....................................................    20
Sgamma, Kathleen, Vice President of Government & Public Affairs, 
  Western Energy Alliance........................................    27
Squillace, Mark, Professor of Law, University of Colorado Law 
  School.........................................................    33

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Exploration & Mining Association:
    Letter for the Record........................................    88
American Petroleum Institute:
    Statement for the Record.....................................   122
Barrasso, Hon. John:
    Opening Statement............................................     1
    Washington Post article dated June 20, 2016 entitled 
      ``Interior chief warns 70,000 employees: Sexual harassment 
      is `completely out of line with our values' ''.............    52
Kane County, Utah Board of Commissioners, et al:
    Letter for the Record........................................   125
Kornze, Hon. Neil:
    Opening Statement............................................     7
    Written Testimony............................................    10
    Responses to Questions for the Record........................    72
Magagna, Jim:
    Opening Statement............................................    15
    Written Testimony............................................    17
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
    Written Statement............................................     3
Ogsbury, James:
    Opening Statement............................................    20
    Written Testimony............................................    22
    Response to Question from Senator Gardner....................    58
Sgamma, Kathleen:
    Opening Statement............................................    27
    Written Testimony............................................    29
    Responses to Questions for the Record........................    86
Squillace, Mark:
    Opening Statement............................................    33
    Written Testimony............................................    35
    Supplemental Letter for the Record...........................   132
    


        THE BUREAU OF LAND MANAGEMENT'S PLANNING 2.0 INITIATIVE

                              ----------                              


                         TUESDAY, JUNE 21, 2016

                                       U.S. Senate,
         Subcommittee on Public Lands, Forests, and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:39 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. John 
Barrasso, Chairman of the Subcommittee, presiding.

  OPENING STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM 
                            WYOMING

    Senator Barrasso. This Subcommittee meeting will come to 
order.
    The purpose of today's hearing is to examine the Bureau of 
Land Management's proposed rule which is called Planning 2.0.
    Before I give my opening statement I would like to turn the 
time over to the Chairman of the Committee, Senator Murkowski.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    The Chairman. Senator Barrasso, thank you. I apologize to 
our witnesses and to those in attendance today. I have a 
commitment with the Inter-parliamentary group from Canada, and 
I am supposed to speak over there as well.
    I would like to, if I may, take a couple moments and just 
enter this statement into the record, but first thank all the 
witnesses for joining us here this afternoon.
    As you state, Mr. Chairman, the focus of today's hearing is 
to provide oversight on the BLM's proposed land use planning 
rule, Planning 2.0, which will make broad changes to how the 
agency will issue resource management plans moving forward.
    For an initiative that claims to engage state and local 
governments early in the process, Planning 2.0 is certainly 
taking a lot of heat right now.
    The BLM outlines its engagement process online including a 
webinar and two public meetings that occurred prior to the 
development of the proposed rule. While the agency may feel 
that they met the FLPMA requirements for outreach, our state 
governments, especially my colleagues in Alaska, largely 
disagree. Instead they have told me their voices have been 
ignored as evidenced by the product BLM noticed in the Federal 
Register.
    BLM is currently obligated to establish management plans 
that are consistent with state, local and tribal management 
practices. Under the proposed rule the time period for 
consistency review is limited to 60 days and the scope is 
restricted to officially approved and adopted.
    This is particularly troublesome for folks in Alaska as the 
BLM has yet to fulfill Alaska's entitlement requirements, thus 
making it impossible for the state to adopt and improve plans 
for lands it has yet to receive.
    As written, the proposed rule makes some sweeping changes 
to both the current resource management planning process and 
the opportunities for public engagement. The drastic changes in 
the process and the elimination of opportunities for formal, 
public comment, along with the exclusion of several 
transparency requirements are alarming to say the least.
    While BLM attempts to justify many of these changes in the 
name of streamlining, I am concerned the long-term result may 
be a longer process with state, local and tribal governments, 
as well as interested stakeholders, deprived of opportunities 
to engage in the process in a meaningful way.
    In its proposed rule, BLM includes the definition of 
mitigation. To explain that mitigation includes the sequence of 
avoiding impacts, minimizing impacts and compensating for 
remaining unavoidable impacts.
    For the first time in a proposed planning regulation, BLM 
specifically states, ``By including this proposed definition in 
the planning regulations, the BLM acknowledges that this 
sequence also applies to the planning process.''
    The emphasis on mitigation, specifically as a means of 
compensating for unavoidable impacts, is problematic as it 
moves the agency away from its mission of multiple use.
    Finally, I would like to speak to one of the purported 
primary goals of the proposed rule which is to enable the BLM 
to readily access landscape scale resource issues. While I 
concur with the BLM that the current planning process is far 
from perfect, I am not convinced that the solution to all 
present planning issues lie in landscape scale plans as we have 
seen in the sage grouse plan of late.
    I am particularly concerned about including Alaska in 
multiple state plans. While Alaskans certainly love our 
neighbors in the lower 48, there are certain Federal laws that 
apply only to Alaska that do not apply elsewhere and 
specifically cover Federal lands. Thus, this could prove quite 
problematic in developing a broad RMP that covered say our 
migratory bird plan for the Western United States.
    So again, Mr. Chairman, I appreciate you giving me an 
opportunity to say a few words. I thank you for conducting this 
very, very important hearing on these issues and thank the 
witnesses again.
    [The written statement of Senator Lisa Murkowski follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Thank you very much, Madam Chairman. I 
appreciate you taking the time to be here. I think it is going 
to be an interesting hearing because the BLM has been 
describing this Planning 2.0 as a simple initiative to so-
called increase public involvement and incorporate the most 
current data and technology into its land use planning.
    There is no doubt that the BLM's current planning process 
is often cumbersome. It is inefficient. But I am concerned that 
instead of actually increasing public involvement and 
streamlining the planning process, this Planning 2.0 process 
will be less efficient, will be more costly and will 
marginalize experts who are integral to public land management. 
Those are real concerns, and I hear them in Wyoming.
    The agency seems to think that the proposed rule is a 
simple clarification of the planning process but this is not 
the case. What Planning 2.0 proposes would fundamentally alter 
the way that state, local, tribal, local governments, 
stakeholders and general public engage in the public land 
management planning process.
    As written, Planning 2.0 will effectively ignore expert 
knowledge in both local agency offices and among local land 
users, and I believe, compromise the ability of state and local 
governments to represent the people and the resources in their 
own districts.
    In an effort to make its goal of a transition to what is 
called, ``landscape scale planning,'' BLM proposes to shift 
authority from local and district offices to Washington, DC. 
Now I appreciate that the BLM wants to make management plans 
more cohesive among local offices, but developing sweeping 
landscape-scale plans from the Director's office in Washington, 
DC, I believe, is going to result in a failure to utilize 
valuable, localized knowledge of ecosystems and resources. This 
change would result in plans that do not reflect the on the 
ground realities and ultimately, will disenfranchise 
knowledgeable, local agency employees.
    It won't just be agency personnel who are overlooked. In 
the proposed rule, BLM seems to recognize the need for improved 
stakeholder involvement in the planning process, but 
unfortunately, the proposed changes will, in my mind, decrease 
stakeholder involvement at crucial points in the planning 
process and will further extend planned development times that 
are already much too long.
    The BLM seems to think that the addition of the ``planning 
assessment'' period at the beginning of the planning process 
would help agency officials understand how the public feels. 
What the agency clearly fails to realize, however, is that if 
planning is kept at the local and the state offices' level, 
then officials developing the plans should already be aware of 
public opinion before the process even begins.
    Formalizing this preemptive planning assessment period 
seems to be a justification for regional or Federal agency 
employees to implement a top-down land management agenda.
    Introduction of public comment on preliminary alternatives 
before a draft resource management plan is published will only 
increase the time it takes to complete a resource management 
plan and, in my view, will provide no added benefit. How can 
the public or any relevant stakeholder be expected to comment 
on proposed alternatives when the details of the plan have yet 
to be determined?
    I am not sure if Senator Wyden is a bit delayed. He may 
come, and I will give him an opportunity at that point to make 
opening remarks.
    Senator Daines, at this time, would you like to add any 
opening remarks or to wait until the questioning?
    Thank you.
    I appreciate the wonderful witnesses who are here with us 
today.
    We are going to have Mr. Neil Kornze, who is the Director 
of the Bureau of Land Management; Jim Magagna, who is the 
Executive Director of the Wyoming Stock Growers Association; 
Mr. James Ogsbury, who is the Director of the Western 
Governors' Association; Ms. Kathleen Sgamma, who is the Vice 
President of Public and Government Affairs for the Western 
Energy Alliance; and Mr. Mark Squillace, who is a Professor of 
Law at the University of Colorado Law School.
    Before turning to our first witness, I would like to take a 
moment to thank my friend, Jim Magagna, for being here today. A 
native of Rock Springs, Wyoming, Jim has served as the 
Executive Director for the Wyoming Stock Growers Association 
since 1998. He is a veteran witness before congressional 
Committees. He provides an invaluable perspective on all things 
related to agriculture and public land management. So I am 
happy, Jim, that you could join us today to share your thoughts 
with us and with the rest of the panel.
    I would like to remind the witnesses that your full written 
testimony will be made part of the official hearing record. 
Please keep your statements to five minutes so that we may have 
time for questions.
    Director Kornze, please proceed.

    STATEMENT OF HON. NEIL KORNZE, DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Kornze. Thank you, Chairman Barrasso and members of the 
Subcommittee. I appreciate the opportunity to provide testimony 
on the Bureau of Land Management's proposed update to its land 
use planning rule.
    The BLM manages ten percent of the land in the United 
States and 30 percent of the nation's minerals and soils.
    Land use plans form the basis for every on-the-ground 
action that the BLM authorizes or undertakes. That's why it's 
critical, not just to the BLM but to communities throughout the 
nation, that we have an effective land use planning process 
that includes meaningful public process.
    Since the BLM first implemented its land use planning rule 
in 1979, pressures on BLM-administered lands have increased and 
management conflicts have grown. As a result, the current land 
use planning process encounters more delays, higher expenses 
and expanded legal challenges.
    We have heard from numerous governments and individuals 
that the BLM's notoriously long planning processes make them 
feel disconnected from the agency's work.
    One of the first meetings I took as the head of this agency 
was with Governor Herbert of Utah. In that conversation he told 
both me and Secretary Jewell that the BLM's planning process is 
broken because completing the land use plan could take a decade 
or more. He said something must be done to make these processes 
more timely and transparent. I understand his concerns, and I 
agree. It's essential that we have a planning process that is 
timely, open and focused on issues that matter to the people of 
each of the communities that are impacted.
    That's why we started the Planning 2.0 initiative. Input 
from Governor Herbert and many others served as a catalyst for 
the BLM to modernize its land use planning process.
    The proposed rule under consideration today is the 
culmination of over two years of outreach and discussion with 
state and local governments, communities and the public. During 
those two years the BLM held public meetings and accepted 
comments from more than 6,000 local governments, groups and 
individuals. With this updated rule the BLM aims to address the 
concerns of governments and the public by accomplishing two 
primary goals.
    First, the proposed rule would establish more meaningful 
opportunities for governments and the public to be involved 
earlier and more often in the land use planning process. By 
providing earlier and more regular check-ins and opportunities 
for dialog, we believe that our planning process will be more 
transparent and more relevant to the challenges facing counties 
and towns across the country.
    Second, by building our planning efforts on a more complete 
set of information, we are confident that the need for late in 
the game supplementation will be greatly diminished. In turn, 
we will be able to finish our planning efforts in a timelier 
fashion and put our energy and staff time into on-the-ground 
projects with our partners.
    Under the proposed rule, government entities that have 
either relevant jurisdiction or special expertise would 
continue to be invited to participate as cooperating agencies. 
Cooperating agencies work closely with BLM in every stage of 
the planning process to identify issues that should be 
addressed, to collect and analyze data, to develop and evaluate 
alternatives and to review preliminary documents.
    This unique partnership ensures that the BLM has all the 
information necessary to develop a land use plan that is 
responsive to the needs and concerns of local communities. The 
BLM is committed to continuing its close collaboration with 
these government entities as part of the land use planning 
process.
    Now our stakeholders told us that there was room for 
improvement in the way that we work, and we agree. Without 
close working relationships with communities that we serve, the 
BLM cannot develop and maintain appropriate and effective 
plans. The updated approach that we have in front of us today 
would provide for more public involvement earlier in the 
process, allow the BLM to better address local needs and to 
deal with changing land and resource conditions.
    Updating our process will more fully involve local 
governments and the public and ensure that the BLM will have a 
stronger hand in maintaining and living up to its multiple use 
and sustained yield mission.
    Thank you again for the opportunity to be with you today, 
and I would be glad to answer questions from the Committee.
    [The prepared statement of Mr. Kornze follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Barrasso. Thank you very much, Mr. Kornze.
    Mr. Magagna?

  STATEMENT OF JIM MAGAGNA, EXECUTIVE VICE PRESIDENT, WYOMING 
                   STOCK GROWERS ASSOCIATION

    Mr. Magagna. Thank you, Mr. Chairman, and thank you for 
your kind words of introduction.
    I believe it's useful to our discussion of our concerns 
with the planning rule to place it in the context of the 
evolution of the relationship between the BLM and the public 
land ranching industry.
    Prior to the middle of the last century, grazing was 
considered just a use of the land. As we evolved during the 
1960's and beyond with some of the environmental laws that were 
passed in this country, we came to recognize grazing, not just 
as a use of the land, but as a tool for managing the land and 
real strong partnerships developed between public land ranchers 
and local BLM range personnel and BLM decision makers based on 
bringing some new science to the practice of grazing and 
working together on the land, not on paper, but on the land. 
And it, livestock grazing, was recognized within the agency 
itself as being an important tool in meeting the resource 
management goals of the agency.
    We are very concerned as an industry that several of the 
changes proposed in Planning 2.0 will further erode this 
partnership with the agency that worked toward achieving 
sustainable resource management.
    A central component of Planning 2.0 includes a concept of 
landscape level planning. We find several dangers inherent in 
this approach. Attempts to implement broad management plans 
will necessarily often result in less attention to the resource 
management needs of a particular land area. Landscape level 
planning moves the input in decision-making process further 
from those agency personnel with a working knowledge of the 
resource, the resource challenges and the resource dependent 
community. The removal of well-defined roles of BLM state 
directors and field office managers in favor of ``deciding 
officials'' and responsible officials, only serves to increase 
the uncertainty and distrust that had been growing among 
resource dependent constituencies. Landscape level planning 
will significantly reduce the ability of local governments, 
resource dependent users such as grazing permittees, and the 
local public to engage in and influence the planning process.
    A second component of Planning 2.0 addresses so-called 
improved opportunities for public input. While Planning 2.0 may 
engage a greater breadth of the public to provide input, it 
actually significantly lessens the ability of those most 
directly involved in multiple use of the resource and, 
therefore, most significantly impacted to have meaningful 
substantive impact. One example of this is the reduction in the 
minimum formal comment periods from 90 days to 60 days in terms 
of the draft proposed plan. Even today with 90 days there are 
typically requests for extended periods of time. Those are 
often granted. If we reduce this to 60 days, those requests 
will increase.
    We're expediting the process but only in terms of the 
opportunities for public input. In part because grazing 
permittees, many of whom who have multiplied generational 
commitments to stewardship for the public lands, have been 
relegated to no greater opportunity for engagement than that of 
the public. We have become increasingly dependent on state and 
local governments to represent our interest in the planning 
process. While the rule acknowledges the role of these local 
entities, it is filled with undefined terms that provide BLM 
multiple escape routes from full cooperation. These include 
cooperation where possible and appropriate, collaboration as 
feasible and appropriate and consistency to the maximum extent 
that the BLM finds practical.
    Another goal of Planning 2.0 is to increase the agency's 
ability to respond to social and environmental change in a 
timely manner, we find it very difficult to reconcile this 
stated goal with the BLM's mandate to manage for multiple use 
and sustained yield.
    Finally, BLM Planning 2.0 replaces the requirement that BLM 
identifies a single, preferred alternative with the opportunity 
to identify one or more preferred alternatives. This, again, 
will further burden affected constituencies in providing input 
and will actually extend rather than shorten that process.
    So in summary, Mr. Chairman, members of the Committee, 
beyond Planning 2.0 will complicate effective resource planning 
while reducing opportunities for meaningful public and local 
government input and lessening local agency decision-making 
authority. It will further challenge the public land rancher 
while eroding our partnership with local BLM personnel in 
ensuring resource sustainability that contributes to the long 
term viability of our industry.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Magagna follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. Thank you very much, Mr. Magagna.
    Mr. Ogsbury?

    STATEMENT OF JAMES OGSBURY, EXECUTIVE DIRECTOR, WESTERN 
                     GOVERNORS' ASSOCIATION

    Mr. Ogsbury. Chairman Barrasso, members of the Committee, 
my name is Jim Ogsbury. I'm the Executive Director of the 
Western Governors' Association, an independent, bipartisan 
association, representing 19 Western Governors and three U.S. 
flag islands.
    When it comes to the development of an administration of 
Federal public policy, Western Governors are duly concerned and 
often frustrated when they are regarded or treated as common 
stakeholders.
    Governors, the Chief Executive Officers of their states, 
are much more than that. States are sovereigns. Governors have 
constitutional responsibilities, delegated authorities and on-
the-ground knowledge about their state's economies and cultures 
and environments. Their expertise and their perspectives should 
be brought to bear in the design and execution of Federal 
programs.
    The governors are particularly anxious to operate as 
authentic partners with Federal agencies in the implementation 
of programs that have demonstrable impacts on state authority. 
States, for example, possess primary police powers to manage 
most fish and wildlife within their boundaries. Likewise, 
states have primary authority over the management over water 
resources within their borders and they possess plenary 
authority over groundwater.
    Because of the management of Federal lands implicates these 
authorities and because the Bureau of Land Management owns such 
a vast amount of land in the West, the governors are deeply 
invested in the agency's processes for the development of 
resource management plans.
    Moreover, the Federal Land Policy and Management Act, 
FLPMA, recognizes this investment and mandates a substantial 
role for governors in the BLM planning process. Unfortunately, 
the proposed Planning 2.0 rule fails to honor the role of 
governors in this process and instead diminishes it in 
significant respects.
    With respect to states, FLPMA says in relevant part that 
the Secretary of Interior shall, ``coordinate the land use 
inventory, planning and management activities of or for such 
lands with the land use planning and management programs of 
states. The Secretary shall provide for meaningful public 
involvement of state officials in the development of land use 
programs, land use regulations and land use decisions for 
public lands. Land use plans of the Secretary under this 
section shall be consistent with state plans to the maximum 
extent he finds consistent with Federal law.''
    Planning 2.0 changes the existing implementing regulations 
in ways that diminish gubernatorial authority and influence. 
Whereas, current regulations provide that BLM shall strive for 
consistency between resource management plans and resource-
related policies, plans, programs and processes of states. The 
proposed regulation would only consider consistencies between 
RMPs and officially adopted land use plans, significantly 
narrowing the influence of Governors.
    Furthermore, the proposal eliminates the existing 
regulatory directive the BLM accept a governor's 
recommendations submitted as part of his or her consistency 
review if they provide for a reasonable balance between the 
Nation's interest and that of the state. Under 2.0 the Director 
is directed to simply consider governors' views. By eliminating 
the current provision and failing to provide criteria or 
standards for the review of gubernatorial input, it appears 
that BLM is investing itself with great, perhaps unfettered, 
discretion to disregard governors' recommendations.
    Western Governors are concerned about several provisions 
that shorten timelines for public comment and obviate the need 
to publish notices in the Federal Register. The agency has 
suggested that comment periods are appropriately reduced 
because the proposed rule includes new opportunities for the 
public to participate early on in the planning process, such as 
the new planning assessment phase. These additional 
opportunities, however much they may operate to elevate the 
role of the public and non-government organizations in resource 
planning, do nothing to promote coordination between the states 
and the agency rather, governors are treated like any other 
stakeholder.
    Planning 2.0 includes new provisions calling for the use of 
high quality information. It is disappointing that the proposal 
fails to acknowledge the value of state science, data and 
analysis despite the congressional directive. For the past 
three years the Federal land management agencies use state 
information, at least with respect to wildlife data as a 
principle basis for land management decisions.
    There is little disagreement that the resource management 
planning process of BLM could be greatly improved. Accordingly, 
Western Governors are prepared to work with BLM as authentic 
and invested partners in the development and execution of a 
planning process that redounds the benefit of individual 
states, the American West and our great nation.
    Thank you.
    [The prepared statement of Mr. Ogsbury follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Senator Barrasso. Thank you very much for your testimony.
    Ms. Sgamma?

 STATEMENT OF KATHLEEN SGAMMA, VICE PRESIDENT OF GOVERNMENT & 
            PUBLIC AFFAIRS, WESTERN ENERGY ALLIANCE

    Ms. Sgamma. Thank you, Mr. Chairman.
    Kathleen Sgamma, Vice President of Government and Public 
Affairs for Western Energy Alliance. We represent oil and 
natural gas producers all across the West.
    We believe Planning 2.0 will upend the balance enacted by 
Congress in FLPMA. It's converting it away from principles of 
multiple use and sustained yield and into those of conservation 
or preservation, excuse me, only.
    A preservation only agenda is about locking public lands 
away from human uses, other than recreation. It's meant to 
drive out activities like energy development and grazing, and 
it treats people who live and work in the West as inconvenient 
and their livelihoods as unimportant. Simply put, it is about 
putting wildlife and other resource values above people.
    Of course, we all know that wildlife, rivers and ecosystems 
don't respect state borders. Stating such has been a primary 
talking point from the Interior Department, as if that is some 
new revelation.
    Asserting a new buzz word, landscape level planning, is 
also not particularly enlightening. The implication of this 
messaging is that the Federal Government is needed to step in 
and do something that the states aren't doing. In actuality, 
Western states have been conserving resources on a landscape 
level for decades, well before the term was coined.
    Since at least 1954 states have been working together on 
the greater sage grouse. They've been working since the 1920's 
on many other non-boundary respecting species through WAFWA, 
the Western Association of Fish and Wildlife Agencies. They've 
been working together for over 100 years to manage water in 
rivers that obviously flow across state boundaries.
    Clearly, the Federal Government is late to the game. In 
fact, it's as if the Federal Government is coming--arriving 
late to the game and not knowing the unwritten rules that 
everyone follows, then suddenly comes up with new rules and 
then complains that everybody isn't following those rules.
    In reality the states have been balancing conservation with 
economic opportunity for its citizens, but it's being treated 
by the Federal Government as if it doesn't know how to handle 
those affairs.
    Let me be clear. I'm talking about the political leadership 
that is promoting the environmental lobby's preservation only 
agenda. Many of the personnel actually in the field and on-the-
ground have been working in Western states for decades, 
collaborating with state fish and wildlife agencies, county 
land planners and other local stakeholders and trying to do the 
right thing.
    However, BLM and other agencies are being pushed away from 
that practical Western collaboration by Washington and those 
ascribing to the preservation only agenda are being pushed 
further down the hierarchy.
    We appreciate the frankness of one such BLM employee at the 
March 25th meeting in Denver, the outreach meeting on Planning 
2.0, who said that Planning 2.0 is 21st century conservation, 
that is preservation only.
    BLM is conducting Planning 2.0 as if it can just wipe the 
slate clean and plan without respecting the realities on-the-
ground and prior commitments such as oil and natural gas 
leases, grazing permits, community access roads and other 
inconvenient human uses. It's about upending the balance that 
Congress created in FLPMA. That balance has conserved many 
millions of acres while enabling productive activities on 
appropriate multiple use lands. Those productive uses sustain 
Western rural communities while providing Americans with the 
food, fuel and fiber upon which their lives are based.
    My full testimony and our comments on the proposed rule 
contains several details on how the initiative will result in 
many new layers of overlapping NEPA analysis that BLM is not 
equipped to handle, particularly with all the other rules and 
mitigation policies that it's working on and how the proposed 
rule would actually diminish and not expand the level of public 
participation.
    I look forward to questions.
    [The prepared statement of Ms. Sgamma follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Thank you so much for your testimony.
    Mr. Squillace?

 STATEMENT OF MARK SQUILLACE, PROFESSOR OF LAW, UNIVERSITY OF 
                      COLORADO LAW SCHOOL

    Mr. Squillace. Thank you, Mr. Chairman, members of the 
Committee. My name is Mark Squillace. I'm a Professor of Law at 
the University of Colorado Law School, and I appreciate the 
opportunity to share some thoughts with you today about the 
Planning 2.0 initiative.
    Let me begin by congratulating the BLM on undertaking this 
land use planning effort. I think it's an important initiative 
that, frankly, is long overdue. But despite my general support 
for this initiative, I think there's much that could be 
improved.
    I want to focus my testimony on two particular matters. The 
first being the landscape level planning issue that's been 
discussed by several witnesses.
    I also want to talk about something that has not really 
been discussed yet today, and that is the efforts toward 
adaptive management which, I think, are an important part of 
any reform in land use planning.
    When I think of landscape level planning I think about 
Major John Wesley Powell. If you go back and think about 
Powell, he was the guy who did the original exploration of the 
Colorado River and wrote a report about the Western United 
States in which he included a map that suggested that the West 
be divided up according to river basins. I'd like to think of 
Powell as, maybe, the first landscape ecologist, although he 
didn't talk in those terms.
    But Powell, I think, understood the importance of bringing 
our political geography in harmony with our natural geography, 
and I think that's something that's missing today out of our 
land use planning process. I think this initiative by the BLM 
at least has the potential to try to move us farther in that 
direction.
    I want to highlight one important advantage of landscape 
level planning that I think has been overlooked so far in the 
testimony. If you think about what would happen with landscape 
level planning it's going to bring the BLM into an analysis, 
not only of the BLM landscape, but of other land use plans by 
state and local officials at the same time. And so, the 
concerns about consistency reviews could be basically played 
out and understood right at the beginning of the planning 
process before we ever got to unit level planning. I think 
that's a huge advantage because the BLM would then proactively 
be identifying conflicts and working with the states to try to 
resolve those conflicts before we even got to unit level 
planning.
    I want to emphasize that landscape planning is only one 
part of the process. I've, sort of, suggested that there might 
be four different levels in which we think of planning. There's 
the landscape level, there's the unit level, there's the 
resource level, and then there's the project level. At least 
four different ways in which we think about different decision-
making.
    But I do want to emphasize something that's important here 
which has been brought up by Chairman Barrasso and others about 
the complexity of the process. It's not working. I think 
Governor Herbert is right that the planning process is broken 
the way that it works.
    What our plans need to do is they need to be able to adapt 
and they need to be able to engage the public in a meaningful 
way. When it takes five years or more to develop a land use 
plan, that just isn't happening.
    I've used the word nimble. I think our land use plans need 
to be nimble. When they take so long to develop they are simply 
not nimble, and they need to be improved.
    These uncluttered plans will also really, I think, offer an 
opportunity to better engage the public. Right now it's only 
professionals that can really participate in land use planning 
processes. We really need a simpler process that allows the 
public to be engaged.
    Let me briefly turn to the issue of adaptive management 
before closing my oral testimony. Adaptive management is this 
idea that the scientists talk about as learning by doing. It's 
an important, I think, advance in the way we think about land 
use planning because it allows us to, sort of, give up some of 
the detail and complexity at the front end in terms of the 
environmental assessment and the plan itself in exchange for 
committing ourselves to adapting at the back end after the plan 
is implemented, agreeing to make changes to the plan as we 
learn more information from the experience of actually 
implementing the plan.
    I think the proposed rules that the BLM has promoted take 
us part of the way in the direction of adaptive management. 
They do talk about various kinds of plans having provisions 
that are specific and measurable and time bound objectives that 
can help for us to get part of the way.
    What the current proposed rules do not do, however, is to 
focus on the importance of monitoring and evaluating and 
determining whether or not these objectives are actually being 
met. I think if we go that additional step, we will have taken 
a big, a leap toward better adaptive management.
    I want to thank the Committee again for the opportunity to 
speak today. I'm happy to answer any questions that you might 
have.
    [The prepared statement of Mr. Squillace follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Thank you very much for being here. Thank 
all of you for your testimony, your time, and your 
thoughtfulness.
    I am going to turn to my colleagues in a second for 
questions.
    Mr. Kornze, first, there was an article I was surprised to 
see in the Washington Post today, on page A15. The Interior 
Secretary warns staff about harassment, a pretty large article 
in the Post.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    The article says that Secretary Jewell apparently warned 
70,000 Federal employees to ``comply with the ethical 
responsibilities expected of all Federal employees.'' According 
to the article, this is a result of sexual harassment, 
scientific misconduct and data manipulation affecting research 
projects worth more than $100 million and other violations of 
ethics standards.
    I was just wondering what you are doing to address this 
issue at the BLM and ensure that your agency employees uphold 
their ethical responsibilities?
    Mr. Kornze. Well, I appreciate the question and these are 
very serious issues.
    A number of weeks ago, perhaps a month ago, I sent out my 
own note to all 10,000 BLM employees noting the importance of 
promoting an ethical culture within our organization. Folks 
have known the importance of transparency, following the rules, 
respecting one another, and these are issues in conversations 
that are continuing in a very real way within all of the 
agencies within the Department.
    Senator Barrasso. It seems that the National Park Service 
is conducting an anonymous survey of all their full time, 
seasonal, and temporary employees to get a handle on the 
problem. Is that something you are considering for BLM as well?
    Mr. Kornze. We are considering it.
    Senator Barrasso. Thank you.
    Senator Daines?
    Senator Daines. Thank you, Mr. Chairman. Thanks for holding 
this hearing today.
    I am an avid sportsman, as are most Montanans. I enjoy our 
public lands with my kids, and it is something I want to pass 
that legacy down to as well.
    I am also just struck as I sit here today and looked at a 
quick little map here and probably should have brought a map 
around where the BLM lands are. It is very, very white as it 
relates to--I have a map here that shows BLM lands as yellow. 
If you look, draw a line north and south basically on the 
eastern border of Montana, go down the east border of Wyoming, 
east border of Colorado and the east border of New Mexico, 
there is nothing as relates to BLM lands going to the east with 
just a little bit of smidgen in North Dakota, South Dakota.
    It is no coincidence, perhaps, we sit here. It is Wyoming, 
it is Alaska, it is Utah, it is Idaho, it is Montana, it is 
Colorado, it is Arizona that are here today.
    Mr. Kornze. Yeah.
    Senator Daines. I was struck with Mr. Ogsbury's comment as 
well on the importance of our Governors, the frustration we 
have out West that our voices are not being heard.
    With all due respect, we have many members in this 
Committee, the full Committee, from Vermont, from 
Massachusetts, from states that do not have lands that are 
classified as BLM. That is why you see a lot of interest here 
today, I think, from those who are affected every day, who hear 
from our ranchers, our sportsmen, our farmers, those in the 
energy business as well.
    As I have said in Montana, we are a blend of John Denver 
and Merle Haggard. You have to find that melody that we want to 
be able to raise our kids in our state and allow them to get 
jobs so they can stay in our state. Our number one export in 
Montana is our children. We educate them and then they have to 
leave because we are 49th in per capita wages, and so that is 
why these discussions really, really matter.
    I was in the software business for a number of years. 
Anytime there was an upgrade from 1.0 to 2.0 oftentimes 
customers would be excited about that. Other customers would 
run for cover knowing here comes the upgrade. What is going to 
happen here as things will break or the upgrade was not as it 
was promised to be.
    The decisions that are made by BLM have wide ranging 
implications for our farmers or ranchers and others' use of 
land and our sportsmen as well. That is why I think 
transparency, local engagement throughout the process is of 
utmost importance.
    We have heard from Director Kornze today that the new BLM 
2.0 plan gives added participation for vested interested 
groups. But when I am talking to folks who work in the energy 
and ag businesses in Montana, multigenerational Montanans, 
listening to the other testimony today and reading the comments 
from the BLM comment period, I tell you, I am hearing something 
a little bit different.
    That is why, again, it is pretty quiet here on the other 
side of Senator Barrasso because most of states do not have BLM 
lands. It is pretty active over here because we all do.
    Thousands of jobs can be at stake because the BLM does not 
always give due consideration to the people who responsibly use 
the land every day and have been doing so for generations.
    Ms. Sgamma, can you address the discrepancies that I heard 
between Montanans and Director Kornze and what you think needs 
to be done in order to ensure the impacts of BLM 2.0 planning 
rule on the people who use the land are reflected and 
adequately addressed in this process?
    Ms. Sgamma. Well, I would reverse the diminishment of 
elected officials in the process, first and foremost. County 
commissioners, city councils, those directly in rural 
communities and local communities in the West affected should 
have a greater voice, just as Mr. Ogsbury has pointed out, the 
governors' roles are diminished as well.
    When you look at things landscape scale and ignore things 
like counties and put conditions on their participation, that 
is diminishing the role of the public and giving it more to 
special interests, frankly.
    When you take away the local elected officials and the 
state elected officials and give it to special interests, you 
know, you're really just taking away from those who actually 
represent the public in all facets of life, from conservation 
to economic.
    Thank you for the question.
    Senator Daines. Director Kornze, I obviously want to get 
your input here. As grazing permittees and lessees have 
contractual relationships with the BLM, makes their livelihoods 
off the land, they are integral partners with BLM in managing 
and improving ranges across Montana and the West. They have a 
distinctive and integral role to play in this.
    With that in mind, do you view grazing permittees as having 
a vested interest in BLM's RMP development process and a unique 
relationship with BLM relative to other interested stakeholders 
or the public at large?
    Mr. Kornze. Okay. Well, thank you, Senator, for the 
opportunity to reply on some of this. And one thing I want to 
point out is we've had some fantastic engagement with we're 
piloting this effort at a number of places. One of them is our 
Missoula plan. We've recently received very positive, glowing 
remarks from the Missoula County Commissioners and from Lewis 
and Clark County Commissioners.
    So there are Montanans on all sides of this issue, and 
we've had some real progress that we're making an example of 
this working.
    Senator Daines. Right, and thank you for that. I will just 
say you have touched two counties. There are 54 more to go.
    Mr. Kornze. There are.
    Senator Daines. If you look at a balanced view here of 
making sure you are getting all counties represented in the 
voice.
    Mr. Kornze. Yes.
    Senator Daines. With all due respect, thank you.
    Mr. Kornze. But there are three counties that are involved 
in the planning process, and we've heard from two and it's been 
thumbs up. So that's the point that I'm trying to make.
    Related to grazers, grazers are playing an important role 
in the land. There are some very important tools that come with 
grazing, sometimes when it comes to fire and other management 
programs that we have. So, you know, we've considered that an 
important relationship.
    If grazers want to be part of resource management planning, 
which we hope they do, we want them at the table. We see them 
and talk to them, you know, very regularly, as you know. So 
that's a relationship that's important to us.
    Senator Daines. Okay, thank you, Director Kornze.
    I am out of time. Thanks.
    Senator Barrasso. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman, and thank you to 
all the witnesses for being here today, particularly the number 
from Colorado. So welcome to the Energy Committee. Mr. 
Chairman, thank you for holding this hearing.
    Mr. Kornze, I wanted to just follow up with a few of the 
things that you had talked about in your opening comments.
    You talked about local communities, local leaders, farmers, 
local ranchers, feeling disconnected from the agency, and you 
mentioned Governor Herbert and his concern with the BLM 
planning process. Now Governor Herbert does not support this 
rule as it is written today, does he?
    Mr. Kornze. We've received comments from the State of Utah 
with some concerns, but, you know, this is----
    Senator Gardner. But I mean, that is why--it sounds like in 
your opening statement when you talk about I agree with 
Governor Herbert. It is a little bit misleading to say that 
this rule, then, is a result of a conversation you had with 
Governor Herbert because I think they have the same objections 
that you are going to hear from Wyoming, from Colorado, from 
Montana, and from Arizona. And I also----
    Mr. Kornze. We've received comments from a lot of 
government, governors, governments, saying that we need a more 
transparent process. So the average BLM planning process takes 
eight years.
    Senator Gardner. To----
    Mr. Kornze. Eight years, and that's the average.
    Senator Gardner. Mr. Ogsbury, how many governors in the 
Western Governors' Association support the rule as written 
today?
    Mr. Ogsbury. I would have to--Chairman Barrasso, Senator 
Gardner, members of the Committee, I would ask leave to respond 
for the record so I could give a thoughtful and accurate 
answer.

    [The information referred to follows:]

    Response for the record from Mr. Jim Ogsbury to Senator 
Garner's Question:
    No governors have communicated their support of BLM's 
proposed Planning 2.0 rule to the Western Governors' 
Association.

    Senator Gardner. But I think it is fair to say that the 
majority of Western governors do not support the plan, the 
rule, as it is written. Is that correct?
    Mr. Ogsbury. Western Governors' Association has submitted 
detailed comments on the rule that express very serious 
concerns and reservations about it, about its provisions.
    Senator Gardner. And some of those reservations the 
governors do not believe that they are authentic partners, that 
it allows room for consistency with state plans and I believe, 
it creates unfettered discretion by BLM to ignore the 
governors' comments. That is some of the testimony you 
provided, correct?
    Mr. Ogsbury. Those are among the concerns, yes, sir.
    Senator Gardner. That sounds like a pretty strong 
condemnation of the rule. I have to tell you I have traveled 
throughout Colorado, Dolores County, Garfield, Gunnison, 
Hinsdale, Jackson, Mesa, Moffat, Montezuma, Montrose, and Rio 
Blanco, Club 20, Western Governors' Association, a number of 
people who are very concerned about this rule as it is written.
    Some of their overarching themes of concern, prioritization 
of single use of multiple use, proposed change for cooperating 
agency status qualifying--I mean, Mr. Kornze, do you think that 
a Garfield County Commissioner should have more say in Garfield 
County than an NGO in New York City over what happens on BLM 
lands?
    Mr. Kornze. So there is no change to cooperating agency 
status proposed here.
    Senator Gardner. I think some would disagree with you here. 
I think a number of people would disagree with you on how that 
cooperating agency status works.
    But do you think, from a standpoint of philosophy, that an 
NGO in New York City should not have as much opinion or sway or 
clout over what happens on BLM land in Garfield County than a 
Garfield County Commissioner?
    Mr. Kornze. So the Organic Act that we have for the agency 
tells us that counties and states, other local governments 
should be the closest to us.
    Senator Gardner. Right.
    Mr. Kornze. So, but let me lay out the challenge that we 
have here. The average BLM resource plan takes eight years, 
average. It can take 10, 12, 13 years to complete one of these 
plans.
    What Governor Herbert commented to me was that you could 
have two or three turnovers in your county commission during 
that time. Right? So the folks that come into the scoping 
process don't have the time to track the 12 or 13 years later 
that their comments have been successfully incorporated into 
what we've been working on.
    So that's a lot of time. It's too much time. It's also a 
lot of money that we're spending on that process that I would 
prefer to spend on projects on the ground, working with your 
constituents.
    So that question that we asked our team is how do we make 
this go faster? And the answer that they brought back to us is 
we should add more process up front because where we get caught 
up and where we trip very often is people bring new information 
to the table and we have to supplement and it adds years and 
years to the process.
    So what you see in front of you and what all of us have in 
front of us with this proposal, this is an honest, genuine 
effort and an open effort, right? We are not, these are not 
final answers. This is a proposal that we're seeking comment 
and input on. So we're very happy to have this hearing today. 
But this is an honest effort to figure out how do we go faster? 
How do we make this more transparent?
    I think the gentleman's comment about this, about planning 
documents which can be a thousand to many thousands of pages 
long, turning this more into professionalized business is 
relevant. And so----
    Senator Gardner. We are running out of time here.
    Mr. Kornze. Yes, yes.
    Senator Gardner. I have a couple of questions here.
    Mr. Kornze. Very quickly, we're essentially, there's two 
big changes here.
    One, we want to start with a process where we ask all our 
local partners, towns, counties, others, to bring the best 
science and best data forward. That's the new foundation we 
want to build. We think it will be stronger.
    And the second piece is between our scoping process and our 
draft EIS we want to be more transparent. We want to take a 
document to your county and others and say, these are the basic 
concepts we're exploring. Are we headed in a good direction 
here? Because if we're not we want to understand how you're 
thinking about it different.
    Senator Gardner. Can you give me a definition of what high 
quality information means?
    Mr. Kornze. So high quality information relates to guidance 
from OMB. It encapsulates best available science. It relates 
to, let's see, I've got a note here.
    You know, information that is yes, reliable----
    Senator Gardner. Well, here is the thing, I mean----
    Mr. Kornze. Accurate.
    Senator Gardner. So we have the length of time it takes to 
get a plan. You have counties that maybe have one employee 
trying to address these issues.
    Mr. Kornze. Exactly.
    Senator Gardner. They are having to rely on bigger counties 
to address these issues. There is very little turnover in the 
agencies that are having to deal with this. I think this is 
putting tremendous stress on so many of our counties in 
Colorado and beyond that are heavily, heavily outnumbered in 
terms of private acres versus public acres. In terms of public 
acres more, far more, than private land.
    This is not something that I have people calling my office 
and saying please embrace this rule. Maybe there are one or two 
people, one or two organizations, not from Colorado. Maybe a 
few organizations in Colorado, but the vast majority of those 
public land counties that I speak to have grave concerns with 
this.
    We were looking at a map here about the BLM, the public 
lands in the Western United States. Do you think it is time 
that we move the BLM headquarters to the Western part of the 
United States? [Laughter.]
    Mr. Kornze. I would be open to that conversation.
    Senator Gardner. Thank you.
    Senator Barrasso. Thank you, Senator Gardner.
    Senator Flake?
    Senator Flake. Thank you.
    Director Kornze, could you tell me what the role of the 
Resource Advisory Councils are?
    Mr. Kornze. Our Resource Advisory Councils play an 
important role in terms of the folks that we sit down with 
usually, two, three, four times a year. We go out on tours. We 
bring them, somebody put it to me recently, inside the tent, 
and we show them the processes we're working through. We show 
them the tough questions we're asking.
    You know, we're able to consult with them in a way on an 
ongoing basis that's meaningful for us and that is over and 
above some of their--it washes away some of the restrictions we 
have with members of the public, right?
    Senator Flake. Well, that is a concern I have. We know what 
they are supposed to do, but in a letter last month to you I 
listed some of the concerns that we have coming out of Arizona 
about the proposed rule. One of the things that I found most 
troubling was that I heard from the Arizona Resource Advisory 
Council that the proposed rule was not brought up by the BLM or 
discussed at any of their meetings prior to being promulgated 
in September.
    I received a letter from you, yesterday, that detailed the 
interaction that BLM has had with the Arizona RAC. It consisted 
of an initial communication two years ago. Another providing a 
fact sheet after the proposed rule was published, and then an 
invitation to a webinar during the public comment period. Is 
that sufficient interaction and is that using the RAC as it was 
intended?
    Mr. Kornze. Well, we have had, what we think, is, you know, 
some fairly good engagement with the RAC in Arizona, and we've 
taken a number of other approaches to get word out about this 
proposal.
    I, myself, have spoken to the National Association of 
Counties, at least three times in the last few years, heavily 
focused on this issue. Some of my deputies have done similar 
engagement. We've been to the North American Wildlife 
Conference. We've sat down with Western Governors' Association. 
We've had webinars. All of this information is available 
online. You know, we've recorded. We've broadcast.
    We've had, you know, we have some limited resources, so 
have we been everywhere in every town? We have not, but have we 
done, I think, a significant and honest outreach with the basic 
questions of how do we improve our planning process? We have, 
and have we taken that input and turned it into a product? We 
have, and that's where we are today.
    So, the additional information that we have from the 
Arizona RAC, from other state RACs is very valuable to us and 
is going to continue to shape this proposal as it moves 
forward.
    Senator Flake. Well don't you think that it would have been 
wise, before the rule was promulgated, to seek some of that 
input because it seems, given the communication that you 
outlined and what we hear from them, that their advice and 
counsel was not sought in the promulgation or the formulation 
of the rule.
    Wouldn't it have been better to have sought their counsel 
before promulgation of the rule rather than simply informing 
them, here is what it is and come to a webinar?
    Mr. Kornze. So we are happy to, you know, double down on 
our engagement with the Arizona RAC and we look forward to 
hearing their thoughts and concerns.
    Senator Flake. The purpose is to seek their input before 
the issue, before the rule was promulgated. I think we could 
have avoided a lot of the substantial negative input that we 
have received had the RACs been used for their intended 
purpose.
    But when it is a letter two years ago providing them the 
fact sheet after the proposed rule was promulgated and then an 
invitation to a webinar--that is it. That is about the only 
communication that they received, so I do not blame them for 
feeling left out.
    Mr. Kornze. Yeah.
    Senator Flake. And can you blame them?
    Mr. Kornze. Well I think, you know, if your perspective is 
that the outreach here could have been better, then I would ask 
you to think about this rule as an effort for us to formulize 
making outreach stronger.
    The point here is to have more upfront engagement so that 
even before we have a scoping meeting we've engaged with 
counties and towns and, you know, universities and others, you 
know, local grazers, citizen scientists, making sure that we're 
bringing data together and we're having a good conversation 
about what foundation should we be building this plan upon?
    So, you know, I'm happy to take criticism about our 
outreach efforts on this rule. You know, we may disagree about 
the quality of that outreach, but what this rule, proposed 
rule, is about is making sure that we're talking to folks, 
local folks, early and often, because right now the criticism, 
they may not be calling Senator Gardner's office but they call 
my office.
    And when I'm out West I very frequently hear from folks 
where they say, yes, look, we went to a scoping meeting for 
your plan and then you disappeared into a cave for four or five 
years and then suddenly we've got a 1,500 page document on our 
desk that we have to work through. That's not an ideal process. 
Right? We want folks to feel like they've been with us through 
multiple steps and that they're part of a live conversation, 
and that's what we're seeking to give them.
    Senator Flake. Well, I would just suggest, I mean, you have 
this organization, this RAC, that is there for that purpose.
    Mr. Kornze. Yeah.
    Senator Flake. It would behoove BLM to reach out.
    Mr. Kornze. Okay.
    Senator Flake. While it still matters while the rule is 
being formulated and we could avoid some of the negative 
feedback that we have received. That is my two cents, and I 
yield back.
    Senator Barrasso. Thank you, Senator Flake.
    Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    This is an issue that is very important to me and to my 
state. BLM manages nearly 23,000,000 acres of public lands in 
Utah. Now 23,000,000 acres is an enormous amount of land. I 
live in a relatively big state and within my state that covers 
an astounding 42 percent of the surface area of the state.
    Utahans depend on these lands for their way of life, for 
farming, livestock grazing, mining, energy development and also 
in many, many instances for recreation. It goes without saying 
that BLM's land management plans have very substantial and very 
lasting consequences for Utah's economy and for the well-being 
of individual families, individual citizens within my state.
    That is why I am troubled by the proposed planning rule's 
disregard for state and local involvement in the planning 
process. The Federal Land Policy and Management Act, or FLPMA, 
as it is commonly known, requires BLM to give state and local 
governments a prominent seat at the land use planning table to 
ensure that plans are in harmony with local needs and with 
local values, with local customs and things that the land is 
commonly used for.
    The proposed rule that we are discussing today, however, 
flouts, I believe, BLM's legislative mandate by undermining 
coordination between BLM and local officials, relaxing 
consistency standards and watering down state and local input 
and doing so in the early planning stages.
    Furthermore, the proposed rule threatens to circumvent 
BLM's own field managers and state directors at later stages of 
the planning process through the introduction of so-called 
landscape level planning which transfers decision-making to a 
deciding official, hand-picked by the BLM director in 
Washington, DC. In the case of my state, that is a couple 
thousand miles away from where the affected people live and 
work and are trying to raise their families.
    Effective land management depends on collaboration and 
trust between the Federal Government and local officials at 
every step of the process. I therefore strongly urge BLM to 
carefully consider the public comments submitted by state and 
local leaders and to incorporate their recommendations into the 
final rule.
    But Mr. Kornze, Utah's local leaders and I are especially 
concerned about the new planning assessment step in the 
proposed rule. As you are aware, last month Utah's Governor, 
the Office of Governor Gary Herbert, sent you a letter 
expressing concern that the planning assessment does not 
meaningfully involve state and local governments, even though 
that is required by FLPMA. The letter recommends, among other 
changes, two amendments to the planning assessment. The first 
would direct the BLM to ``identify state and local plans with 
which BLM plans must be consistent to the maximum extent 
consistent with FLPMA and Federal law.'' The second would 
require BLM to ``coordinate with state and local governments 
and Indian tribes to formulate BLM planning and management 
objectives in the planning area.''
    Now these are modest and, I think, very reasonable requests 
that would more closely align the planning assessment with 
FLPMA and with what FLPMA already requires and I think, would 
alleviate concerns justifiably shared by states and local 
governments across the West.
    So, Mr. Kornze, does the BLM plan to incorporate these 
recommendations into the final rule?
    Mr. Kornze. So we are receiving a lot of really excellent 
comments right now from the State of Utah, from many states, 
from counties, from other stakeholders and other governments. 
We plan, I think we have a path to accepting a number of 
comments. I can't tell you specifically, you know, where we are 
in terms of working through those two pieces, but I will say, 
in terms of the planning assessment and the role of state and 
county governments, if they are cooperating agencies they are 
sitting with us. Right?
    So the point of a planning assessment is to bring in a 
whole mass of information and figure out what data, what 
information you're going to build your plan upon, right? What 
are the core--what's the core information you're going to use? 
You know, who sits next to us? The state and the counties, if 
they want to. They have to opt in to be a cooperating agency, 
but they sit with us and they help us work through that data 
that comes through the door.
    So I'm confident that that is going to be, continue to be, 
a close relationship.
    Senator Lee. Now I am out of time, but just to clarify. Is 
there anything about the two recommendations I outlined, the 
two proposed changes that strikes you as unworkable or 
something that is likely to be rejected or do they sound like 
sound recommendations to you, recommendations that presumably 
could be and perhaps should be incorporated into the final 
rule?
    Mr. Kornze. You know, we are going to take those seriously 
and see if there's something that we can incorporate there.
    Senator Lee. Okay.
    It does not sound like there is anything that is 
categorically, that would strike you as unreasonable about 
those recommendations? Okay, thank you.
    Senator Barrasso. Thank you, Senator Lee.
    Senator Warren?
    Senator Warren. Thank you, Mr. Chair.
    The BLM's Planning 2.0 initiative has the laudable goal of 
modernizing the agency's planning process and to increase 
public involvement in the management of 245,000,000 acres of 
public lands directed by the agency. The vast majority of 
these, of course, are out in the Western states. While BLM does 
not manage any lands in Massachusetts, I am very concerned 
about stakeholder involvement and public outreach across all 
Federal agencies.
    In Massachusetts there have been a number of times when 
Federal outreach has just clearly fallen short, whether it's 
FERC, the FAA, NOAA, HUD or the BLM. An agency cannot insulate 
themselves from public engagement.
    Now I should note that some agencies such as the National 
Park Service and the Department of Agriculture have done a good 
job of reaching out to communities in Massachusetts while 
others simply have not.
    So I would like to start today by asking, Director Kornze, 
the 2.0 initiative is the BLM's first resource plan update in 
over 30 years. The agency has stated in the Federal Register 
that the goal of the proposed rule and I'm going to quote here, 
``is to affirm the important role of other Federal agencies, 
state and local governments, tribes and the public during the 
planning process and enhance opportunities for public 
involvement and transparency during the preparation of resource 
management plans.''
    I would just like you, if you would, to explain what steps 
the BLM is taking to determine the best practices to accomplish 
outreach and public participation goals?
    Mr. Kornze. Great. Well a few of the pieces that we're 
trying to pull together, one is our sister agency, the U.S. 
Forest Service, has gone through a number of revisions to their 
own land use planning regulations in recent years. In fact, I 
think they've done it three or four times.
    One of the pieces that they have found to be the greatest 
success in their new process is the planning assessment, making 
sure that they're doing a wide call for information and 
building on top of that. So that's one of the pieces.
    We're also, you know, we have nearly 40 years of experience 
in working through these planning processes. So we're really--
we've relied on our sister governments, the governors, 
counties. We've also turned to our own folks who have a 
lifetime of experience in helping us understand what counties 
and local governments and others really have been asking for 
over these many years.
    Senator Warren. So thank you.
    I am pleased that the BLM has made early public 
participation a goal. But I have got to say I am concerned that 
the agency is working against itself by proposing to reduce the 
minimum public comment period for a draft EIS level plan 
amendment from 90 days to 45 days and additionally proposing to 
reduce the minimum public comment period for draft resource 
management plans from 90 days to 60 days.
    I just have to say, oftentimes I have been contacted by my 
constituents asking me to request that the Federal Government 
extend the period of time so that they can comment so that they 
have a chance to have their voices heard.
    So let me ask this. Mr. Ogsbury and Ms. Sgamma, in your 
respective testimony you also cited concerns with the BLM's 
proposed reduction in the comment period. Would this proposed 
reduction likely limit community participation and what do you 
believe would be an appropriate comment period?
    Mr. Ogsbury. Chairman Barrasso, Senator Warren, members of 
the Committee, yes, Western Governors do share your concern 
about the reduction in time period for public comment and feel 
that the additional opportunities for input at the front end of 
the process are probably not a good substitute for those 
comment periods which are necessary to wade through extremely 
lengthy, complex materials and materials that might become all 
the more lengthy and complex if the agency does move to more of 
a landscape level analysis.
    So I think there's been a lot of comment, commentary from 
the Western Governors to the effect that, rather than 
shortening those public comment periods, they should be 
extended.
    Senator Warren. Thank you.
    Ms. Sgamma?
    Ms. Sgamma. Thank you for the question, Senator Warren.
    I really think that the public comment period should be 
about 180 days because these documents are thousands of pages 
and they can include technical documents on wildlife, water, 
wild and scenic rivers, very complex issues. So I think the 
public should have a good chunk of time.
    Thank you.
    Senator Warren. Alright.
    This is very important. Look, I understand BLM's desire to 
move these plans in a timely fashion but I think it is 
important to get them done right and that everyone has a chance 
to have their voice heard in this process. Modernizing the 
planning process is a very important goal, but I do not think 
that shortening the comment period at the expense of public 
input is the way to accomplish that. I hope that BLM hears and 
acts on these concerns before issuing a final rule. Thank you.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you, Senator Warren.
    Senator Hoeven?
    Senator Hoeven. Thank you, Mr. Chairman.
    Director Kornze, I have several questions regarding the 
Planning 2.0 initiative. It moves to what is called landscape 
scale planning which is much broader and more ambiguous context 
than currently exists.
    Talk to me about oil and gas development under that 
approach. How is it going to change?
    Mr. Kornze. You bet. So I don't see any major change for 
oil and gas, specifically. So we talk about landscape level 
planning a number of times in the preamble to the rule. I think 
we may have been better served to talk about appropriate scale, 
right?
    So at the agency, working with our partners, we have to 
figure out issues, you know, perhaps there's a real recreation 
driver for an individual town. And then maybe in that same 
quadrant or half of a state there's a change in economies. 
Let's say one resource extraction is going in, one is going out 
and there's a need to figure out on that scale how to work with 
those folks and how to serve those communities best.
    And then you may have on that same landscape a bigger 
landscape that perhaps goes across state boundaries. Think 
about the way that fire is changing ecosystems and invasive 
species are coming in and how we're planning for transmission 
lines and how are we working through other large scale changes 
or challenges.
    So right now at the Bureau of Land Management we have 
about, more than 160 different plans. If I gave either of you a 
map of the West and said, you know, here's a sharpie and here's 
a map of all the public lands, I would be very surprised if you 
came up with 160 different units as the best way to approach 
management of Western public lands.
    So what we're trying to do here is to--it's not prescribing 
something that is necessarily bigger. It could end up being 
bigger and incorporating multiple field offices into a single 
plan, but it's really asking the question, you know, perhaps 
it's, you know, the answer might be, Senator, in practical 
application that it's better for oil and gas.
    You could have a scenario in which our planning is better 
and more effective because we're looking at multiple scales; 
therefore, our plans are less susceptible to successful 
challenge.
    Senator Hoeven. Well I would also recommend that you make 
sure--it looks to me like you expedite the timeline for input 
and this is a very complicated issue and I would recommend that 
you make sure that you provide adequate time for input and you 
may get requests for extensions. I think you need to consider 
those very carefully given the significance of the change and 
the complexity.
    I want to move on to leonardite. BLM is trying to decide 
whether leonardite is coal or humade. But in the meantime we 
have a plant in Williston, North Dakota that is producing 
leonardite and paying royalties and that matters. This 
classification matters because if it is classified as coal then 
they have to pay royalties, and if not, they do not. In the 
meantime, they are paying royalties. When are you going to make 
a decision on this?
    Mr. Kornze. Okay.
    So very quickly on the public comment period that a number 
of folks have mentioned, we will be paying very significant 
attention to making sure that we get that right.
    I think we had put together a, you know, a broader concept 
that with more information up front, perhaps comment periods 
would not need to be as long on the back end. But I--we are 
hearing a strong message from our partners that they still want 
that time and that makes sense to us. Right, so you've got my 
ear on that.
    On leonardite, which is I want to know who Leonard is. 
[Laughter.] But on leonardite my understanding is that the 
lease in question has been in place for about 50 years.
    Senator Hoeven. That is a long time.
    Mr. Kornze. Right.
    And so the new company that has the lease that took over 
ownership a few years ago is looking for a change in the 
position of the Federal Government in terms of the status of 
those minerals.
    I believe our team will be visiting with the company later 
this week, so we should be able to move that process along.
    Senator Hoeven. So relatively soon?
    Mr. Kornze. Relatively soon.
    Senator Hoeven. Okay.
    The last story I want to ask you about is coal leases. 
Right now companies are hearing from the BLM that it will take 
a decade to get approval on a coal lease. Remember in a lot of 
these instances you do not own the surface acres. What is 
happening is you are either having to try to mine around you or 
you are holding up that mine, but it creates a real problem 
because they are still mining that area, they just have to skip 
the coal. So you actually create more disruption, more cost and 
the Federal Government gets no reimbursement out of it.
    Now you have got a three-year moratorium and my question is 
how are you going to address it and fix it? This does not make 
any sense.
    Mr. Kornze. So in terms of the, I mean, we are, as you 
know, you know, doing a top to bottom look at the coal program, 
and all questions are on the table, you know, so this is a 
legitimate question of how long does it, should it take x 
amount of time to go through a coal lease process?
    If there are new ways to think about that and work through 
it, we are open to them and now is a perfect time to be 
bringing that to the table and we will consider that brought to 
the table via comments.
    Senator Hoeven. Well, and I am just encouraging you to 
address it because again, you do not accomplish any 
environmental benefit and instead you are raising costs and for 
the companies affecting private owners and actually losing 
revenue in terms of what the Federal Government takes. It seems 
to me this ought to be figured out sooner versus later, like 
having a three-year moratorium to get a resolution of the 
problem.
    Mr. Kornze. Yeah. You know, similar to land use plans that 
take eight to ten years, ten years for a coal process is too 
long.
    Senator Hoeven. Too long.
    Thank you.
    Mr. Kornze. Thank you.
    Senator Barrasso. Thank you, Senator Hoeven.
    Mr. Kornze, following up.
    The NEPA, the National Environmental Policy Act, requires 
every Federal agency to assess the environmental impacts that 
would result from major actions that are taken by that agency, 
actions like issuing a permit or new regulation. A Federal 
agency assesses environmental impacts in what is known as the 
EIS, the Environmental Impact Statement.
    But your agency, the BLM, has effectively exempted itself 
from complying with NEPA for the Planning 2.0 proposed rule 
because prior to issuing the proposed rule BLM stated that 
Planning 2.0 qualified for what is known as a categorical 
exclusion.
    Given the significance of the changes that Planning 2.0 
proposes, why has your agency decided not to issue an 
Environmental Impact Statement for its own proposed rule?
    Mr. Kornze. So we're getting into the fine details here, so 
bear with me. But the Department of the Interior has a 
categorical exclusion available to us for efforts that are 
procedural in nature which this rule fits. Right?
    So, let me give you a parallel example. Annually, when we 
put out our budget, that is a high level document that comes 
with a CX, the same CX is used because it is not the 
implementation. It's not hitting the ground. It's high level 
and it's procedural in nature. So we're taking a similar 
approach here.
    Senator Barrasso. I think some folks may question that in 
terms of whether it is procedural or if it actually impacts on 
the ground. So there may be additional questions about that.
    Mr. Kornze. Sounds good.
    Senator Barrasso. Senator Warren asked a question about how 
long comments ought to be and Ms. Sgamma, you mentioned 180 
days may be necessary just because of the complexity of trying 
to deal with that.
    I am just going to ask Mr. Magagna and Mr. Ogsbury what 
your thoughts are on the amount of time.
    Mr. Magagna. Well, thank you, Mr. Chairman.
    We certainly think the time, based on the experience of 
extensions being granted, that it should be longer than it is 
today rather than shorter.
    I would add to that the other important component of this 
proposal that allows the agency to put out more than one 
proposed action during that comment period. Until this point in 
time I am not aware of any agency that puts out multiple 
alternatives.
    So the fact that we may have two or more in some cases of 
alternatives to analyze and comment on to me, would add even 
another element of meeting a larger--a longer comment period.
    The Chairman. Yes.
    Mr. Ogsbury, from the standpoint of the governors?
    Mr. Ogsbury. Chairman Barrasso, thank you very much for the 
question.
    Western Governors do not have a specific policy on the 
amount of time that they would request for public comments; 
however, they've expressed very serious concerns about any 
reduction in the amount of public comment periods.
    Senator Barrasso. Thank you.
    Mr. Kornze, the agency has chosen to include several new 
terms and objectives in the Planning 2.0 proposed rule. The BLM 
identified the need to respond more quickly to something called 
social change as part of the justification for Planning 2.0. 
How does the BLM define, ``social change'' and do you believe 
social change is part of the agency's multiple use management 
directive?
    Mr. Kornze. So the term social does find its way into the 
document, and what we were trying to encapsulate was the human 
element, right?
    So it's the economic side. It's the community side. So we 
used a broad term and that's something we're going to think 
about improving to be a little bit more specific and clear in 
the final.
    Senator Barrasso. Getting back to this categorical 
exclusion and the procedural way that you described it. The 
Forest Service did include and issued an EIS on their similar 
proposed rule. So why would the exception apply to BLM but then 
not to the Forest Service?
    Mr. Kornze. So there's two pieces to that. One is my 
understanding is that they do not have a parallel categorical 
exclusion available to them that matches what we have. And then 
the second piece is that the larger framework that they have 
for their similar land use regulation related to plans calls 
out specific standards on the ground that must be met. So ours 
is about how we work. Theirs is about how they work but also 
what they expect to see in their plans and on the ground.
    So they are, as a result of what's in their rule, they are 
seeing impacts on the ground.
    Senator Barrasso. Yes, some may view this as a double 
standard in that the rules that apply to everybody else do not 
apply to the BLM.
    Mr. Magagna, in your testimony you state the BLM's proposed 
rule ``introduces the concept of landscape level planning.'' 
You go on to say that your organization finds several dangers 
inherent in this approach. Do you have a clear idea of what the 
term landscape scale planning actually means and would you 
expand a little bit about your concerns about this landscape 
scale planning?
    Mr. Magagna. Well thank you, Mr. Chairman. It's undefined 
in the proposal, so I can only suppose what it means.
    The way we have necessarily interpreted it is that it gives 
the agency the ability, in any given case, to allow that to be 
whatever they choose it to be. It could be narrow. It could be 
very, very broad. There's no limitation on it, and in that 
context, perhaps the distinction worth making, incidentally, 
I've spent the last four years serving on a national advisory 
committee to the Forest Service, on their new planning rule. 
There are some fundamental similarities that are practical, a 
lot of differences. But in terms of that particular component 
of landscape scale, the Forest Service, I think, more 
appropriately talks about not doing plans on a landscape scale 
but assessing the landscape scale impacts of the plans that 
they do do. They're doing their plans based on forest units as 
they've always done, but they're sensitive to what the 
landscape scale impacts are, not only on other forest lands, 
but on private lands, on state lands, etcetera.
    That seems to make some sense to us. Whereas, landscape 
scale planning, per se, does not and creates real concerns that 
you're moving further away from being able to look at the local 
impacts on local people on local resources. The broader you 
become, the more generic you necessarily become.
    Senator Barrasso. Yes.
    Ms. Sgamma, is there anything you would like to add on this 
term landscape scale planning and concerns you might have with 
that phrase?
    Ms. Sgamma. Well, I think the biggest problem with it is by 
crossing state borders and county borders. It's just watering 
down the input of those counties and states.
    When you've elevated a deciding official, who could be in 
Washington, who could be in another state, who certainly is not 
looking at the county's specific interests. I think that's 
problematic and really getting away from the specific resources 
on the grounds.
    I mean, I sympathize with Director Kornze's point about 
there being a lot of planning units, but in order to do good 
planning you do have to take into effect those details on the 
ground.
    Senator Barrasso. I want to thank all of you for being here 
to testify today.
    Decisions about the future of public lands should involve, 
I believe, the best science, meaningful and ongoing 
coordination with local stakeholders, with state and local 
governments, with tribal officials and then discretion that 
reflects a true understanding of the resource needs.
    I think Planning 2.0 fails in all these categories. 
Director Kornze, given the feedback we have received here today 
and other serious concerns raised during the public comment 
period, it seems clear to me that the BLM must withdraw 
Planning 2.0.
    Any future proposed rule should meet clear, defined 
standards for improving the planning process without 
compromising the basic tenants of public land management.
    If there are no further questions, members may submit 
written follow up questions for the record.
    The hearing record will remain open for two weeks.
    The hearing is adjourned.
    [Whereupon, at 3:59 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------      
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                              
                              





                                  <all>
</pre></body></html>
